No.

IN THE SUPREME COURT OF THE UNITED STATES

FORREST COX, Petitioner,
vs.

STATE OF NEBRASKA, Respondent.

On Petition for Writ of Certiorari from

the Nebraska Supreme Court

PETITION FOR WKIT OF CERTIORARI

Thomas C. Riley
Counsel of Record
Public Defender for Douglas County, Nebraska
1819 Farnam Street
H05 Civic Center
Omaha, Nebraska 68183
(402) 444-7175

QUESTIONS PRESENTED:

I. IN A FIRST DEGREE FELONY MURDER CASE REQUIRING LIFE
IMPRISONMENT, DID THE NEBRASKA SUPREME COURT ERROR IN
APPLYING THE GOOD FAITH DOCTRINE TO A SEARCH WARRANT THAT WAS
EXECUTED APPROXIMATELY HALF A YEAR AFTER BOTH THE FEDERAL
STATUTE AND RELEVANT CASE LAW HAD BEEN OVERTURNED BY THIS
COURT AS UNLAWFUL, CONTRARY TO THE FOURTH AMENDMENT?

II. WAS IT A DENIAL OF THE PETITIONER'S FOURTH AMENDMENT
RIGHTS FOR THE NEBRASKA SUPREME COURT TO DECLINE TO ADDRESS
THE TRIAL COURT'S SUA SPONTE APPLICATION OF THE INDEPENDENT
SOURCE DOCTRINE TO IMMUTABLE EVIDENCE?

a. SHOULD THE INDEPENDENT SOURCE DOCTRINE BE MODIFIED TO

ADDRESS THE UNIQUE NATURE OF IMMUTABLE EVIDENCE TO
ENSURE PRESERVATION OF THE FOURTH AMENDMENT AND ITS
PRINCIPLES?

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

11.

TABLE OF CONTENTS

OPINION BELOW,

.1

STATEMENT OF JURISDICTION.

,1

CONSTITUTIONAL PROVISION INVOLVED

1

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT........................................................ 11
Index of Appendices

NEBRASKA SUPREME COURT OPINION IN STATE V. COX............ App-A
MOTION TO SUPPRESS CELLULAR RECORDS FILED
JUNE 14, 2018 ........................................................................................... App-B
DOCUMENTS PERTAINING TO JUDICIAL APPROVAL OF SEARCH OF
PETITIONER'S CELL PHONE RECORDS DATED MARCH 30, 2017.. App-C
TRIAL COURT ORDER ON DEFENDANT'S MOTIONS TO
SUPPRESS................................................................................................. App-D
MOTION TO SUPPRESS CELLULAR RECORDS FILED DECEMBER 5,
2018............................................................................................................. App-E
AFFIDAVIT AND SEARCH WARRANT OF PETITIONER'S CELL PHONE
RECORDS DATED FILED NOVEMBER 20, 2018...................................App-F
TRIAL COURT ORDER ON MOTION TO SUPPRESS CELLULAR
RECORDS DATED MARCH 12, 2019 ...................................................... App-G

BILL OF EXCEPTIONS (TRANSCRIPT) FROM SUPRESSION HEARINGS
HELD ON OCTOBER 9, 2018, AND JANUARY 11, 2019.......................App-H

BRIEF OF PETITIONER ON DIRECT APPEAL.......................................App-I
BRIEF OF STATE OF NEBRASKA ON DIRECT APPEAL.....................App-J
111.

TABLE OF AUTHORITIES
Carpenter v. U.S., 138 S.Ct. 2206 (2018)............................................................2
Commonwealth v. Henderson, 47 A.3d 797 (Pa. 2012).................................... 27
Commonwealth u. WUson, 158 N.W.Sd 343 (Mass. 2020)........................... 26,27
Davis v. United States, 564 U.S. 229 (2011)................................................ 11,18
Federal Stored Communications Act, 18 U.S.C. § 2701 to 2711........................ 2
Herring v. U.S., 555 U.S. 135 (2009)................................................................ 13
Illinois v.Krull, 480 V.S. 340 (1987)...........................................................11,18
In re Young, 716 F.2d 493 (8th Cir. 1983)........................................................ 15
Murray v. U.S., 487 U.S. 533 (1988).................................................................30
Nardone v. U.S., 308 U.S. 338 (1939)...............................................................24
Nix v. Williams, 467 U.S. 431 (1984)........................................................... 13,24
People v. Dominguez-Castor, 469 P.3d 514 (Colo. App. 2020) .........................27
Rileyv. California, 573 U.S. 373 (2014) ...........................................................29
Segura v. U.S., 468 U.S. 796 (1984)............................................................. 12,28
Stanford v. State of Texas, 379 U.S. 476 (1965)............................................... 32
State v. Betancourth, 413 P.3d 566 (Wash. 2018) ............................................26
State v. Brown, 921 N.W.2d 804 (Neb. 2019).............................................. 11,19
State v. Camey, 217 A.3d 106 (N. J. 2019) .......................................................27
State v. Castagnola, 46 N.E.3d 638 (Ohio 2015).............................................. 13
State v. Ferrari, __ So.3d _, No 4D14-464, 2018 WL 6132264 (Fla. 2018)17
State v, Jenkins, 884 N.W.2d 429 (Neb. 2016)............................................ 12,19
State v. Jennings, 942 N.W.2d 753 (Neb. 2020).......................................... 11,19
U.S. v. Baires-Reyes, No. 16-10545, 750 Fed.Appx. 548 (2018)....................... 27
U.S. v. Christian, 737 Fed.Appx. 165 (4th Cir. 2018)...................................... 17
U.S. v. Curtis, 901 F.3d 846 (7th Cir. 2018)..................................................... 17
U.S. v. Gibson, 928 F.2d 250 (8th Cir. 1991).................................................... 15
U.S. v. Goldstein, __ F.3d _, No. 15-4094, 2019 WL 273103, at *1
(3rd Cir. 2019) ................................................................................................... 16
U.S. v. Joyner, 899 F.3d 1199 (llth Cir. 2018)................................................ 17
U.S. v. Leon, 468 U.S. 897 (1984)..................................................................... 13
U.S. v. Weaver, 99 F.3d 1372 (6th Cir. 1996)................................................... 19
U.S. v. Zodhiates, 901 F.3d 1378 (2nd Cir. 2018)............................................ 17

IV.

PETITION FOR A WRIT OF CERTIORARI
Forrest Cox respectfully petitions for a writ ofcertiorari to the Nebraska
Supreme Court in State v. Forrest Cox No. S-19-780.

OPINION BELOW
The opinion of the Nebraska Supreme Court is reported at 307 Neb. 762,
N.W. 2d _(2020) and is attached at (App-A)
STATEMENT OF JURISDICTION
The Nebraska Supreme Court issued its opinion on November 13, 2020, (App.
A). This Court's jurisdiction is invoked under 28 U.S.C. Sectionl257 (a).

CONSTITUTIONAL PROVISIONS INVOLVED
I.
The Fourth Amendment states that "The right of the people to be secure in

their persons, houses, papers, and effects, against unreasonable searches and
seizures, shall not be violated, and no Warrants shall issue, but upon probable cause,

supported by Oath or affirmation, and particularly describing the place to be
searched, and the persons or things to be seized."

II.
The Fourteenth Amendment states in pertinent part that "... nor shall any State

deprive any person of life, liberty, or property, Without due process of law../
STATEMENT OF THE CASE
The Petitioner, Mr. Forrest Cox, was convicted of First Degree Murder on

solely a theory of felony murder, as well as Possession of a Firearm by a Prohibited
1

Person, and Use of a Firearm during the Commission of a Felony. While there were
no eyewitnesses placing the Petitioner at the scene of the crime, nor was there ever a

weapon recovered from the shooting, nor DNA results produced implicating the
Petitioner, the State's theory of culpability relied heavily on the cellular site location
information (hereinafter "CSLI") belonging to the cellular phone registered to the
Petitioner.

Prior to this Court's opinion in Carpenter v. United States, 138 S.Ct. 2206

(2018), law enforcement applied for a court order pursuant to the Federal Stored
Communications Act, 18 U.S.C. § 2701 to 2711 (hereinafter "FSCA"). (App-C). At the
time of this initial search, the Petitioner was not under arrest for the aforementioned

crimes. Approximately 20 months after applying for this court order and nearly half
a year after Carpenter was published, law enforcement sought a search warrant for
the same CSLI data at the direction of the prosecution, who in the same week,
conceded to the unlawfulness of the initial search.

During this initial search and prior to applying for a search warrant, law
enforcement made copies of the CSLI data and further, plotted said data to discover

the cellular phone was in the area of the homicide in the moments surrounding the
shooting. The trial court entered an order granting a motion to suppress for the CSLI
data acquired during the initial search following the State's concession as to its
unlawfulness. (App-B; App-D). The prosecution did not raise the good faith doctrine
as to the initial search.

2

Thereafter, a subsequent motion to suppress CSLI data took place regarding
the same substantive evidence, albeit the a new copy, this time sought pursuant to a
search warrant and underlying affidavit that included nearly an entire page of new
information for the issuing court to consider. (App-E; App-F). The trial court denied
the motion to suppress, finding the good faith doctrine applicable to this subsequent
search that occurred approximately six months post-Carpenter and sua sponte
determining the independent source doctrine appropriate in this matter. (App-G).
The jury returned verdicts of guilt based upon the following facts:
On March 6, 2017, Mr. Laron Rogers (hereinafter "Mr. Rogers") was employed
as a customer service representative at a Boost Mobile Store. (702:3-703:24). During
his shift, Mr. Rogers asks another employee if he could borrow $100. (725:10-20;
728:9-21). Mr. Htoo did not provide Mr. Rogers with the money. (725:10-20).
Ms. Hope Hood visited her good friend, Mr. Rogers, during his shift. (733:9735:4, 14-24; 758:1-3). Upon arrival, Ms. Hood met Mr. Rogers in his vehicle, where

the two chatted and smoked marijuana. (740:1-11; 758:1-5). During this interaction,
Ms. Hood observed her friend to be less talkative and he communicated that he was
feeling stressed. (759:4-14).

Ms. Hood knew Mr. Rogers to be a marijuana dealer. (734:3-15; 749:15-18;
757:13-15). She informed law enforcement that Mr. Rogers reported to her, while in
the Boost Mobile parking lot, that he owed his "plug" (drug supplier) money. (759:22761:5; 902:5-9).

3

I

During this conversation, Ms. Hood observes a vehicle enter the parking lot
with two men inside, one of which she recognizes as Petitioner. (741:3-742:4).
According to Ms. Hood, the driver was a bald, stocky male, who did not approach the
vehicle. (741:3-15). Instead, he stood in front of the vehicle, without saying a word.

(749:1-8; 762:4-14).
Mr. Rogers greeted the taller male, Petitioner, as "cuz." (748:18-25; 763:4-12).
To Ms. Hood, it seemed like Mr. Rogers had just seen an old friend. (749:1-11). The
two men engaged in a conversation, wherein they exchanged phone numbers and had
a back-and-forth over "two twos." (763:17-22; 764:14-24). Ms. Hood understood this
as a conversation over ounces of marijuana. (763:13-26; 765:11-16).
While in Mr. Rogers' vehicle, Ms. Hood saw a white lidded container of
marijuana that Mr. Rogers displayed in the vehicle. (763:23-764:13). Mr. Rogers

displayed this white lidded container to Petitioner during their conversation over
marijuana. (745:17-746:11; 763:23-764:13). This same white lidded container of
marijuana was recovered by law enforcement, following the shooting, in the same
condition as Ms. Hood observed in the parking lot. (763:23-764:13).
That evening, the Petitioner entered the Boost Mobile store, inquiring about a
particular phone. (726:19-727:11). Petitioner left a blue post-it with an employee

containing the writing "B", "Bubba" with the numbers "312-6473". (Exhibit 118).
Upon review of the surveillance video from Boost ]V[obile, Detective Ryan
Hinsley (hereinafter "Detective Hinsley") identified the other male from the white
Impala as Mr. Rufus Dennis (hereinafter "Mr. Dennis").

4

Law enforcement located this white Impala discovered a seemingly new
steering wheel cover within the vehicle. (Exhibit 87; 787:11-21). Also within the

vehicle, law enforcement collected a partially open ProElite box of license plate
fasteners. (790:19-791:9; Exhibit 119). A receipt from Autozone collected from the
inside of the vehicle dated 3/15/2017 with a plate number UEK 803. (Exhibit 101,
116; 795:19-796:18). A registration for the white Impala, belonging to Ms. Deanna
Dennis, the mother of Mr. Rufus Dennis, was located within the vehicle as well.
(Exhibit 104; 798:8-14; 835:14-836:3).
During the interrogation of Mr. Dennis a few weeks following the shooting, M.r.
Dennis was shown a photo of Mr. Rogers. (835:14-836:10). Mr. Dennis denied that he
had ever seen Mr. Rogers in his life. (835:14-836:10; 1116:8-22). Further, Mr. Dennis
initially denied being at Boost Mobile on March 6, 2017, with Petitioner. (836:4-25).

It was only after the detective showed Mr. Dennis photos and surveillance video from
Boost Mobile did he admit that he was at Boost Mobile on March 6th. (836:4-25).

On March 6, 2017, LT Thomas's son, Mr. Rogers, returned home from his shift
at Boost Mobile between 5:30 p.m. and 6:15 p.m. (693:19-24; 695:12-22). While at
home, and before leaving the residence again, Mr. Rogers asked his father, Mr.
Thomas, for "some change." In response to this request, before Mr. Rogers left the
house, Mr. Thomas provided his son two $100 bills. (696:14-697:18).
During the course of the day, Mr. Rogers made two visits to his bank, SAC
Federal Credit Union. (912:6-932:9, Exhibits 120-121). Mr. Rogers made two
withdrawals on the day of the shooting, one for $120 cash and the other for $821.89.

5

(912:6-932:9; Exhibits 120-121). The first withdrawal was made at 1:49 p.m. (912:6932:9; Exhibits 120-121). The second withdrawal was made by Mr. Rogers that
evening, at 6:56 p.m. (912:6-932:9; Exhibits 120-121). In each instance, Mr. Rogers
had a remaining balance in his accounts of nearly the minimum permitted by the
bank, which is five dollars. (912:6-932:9; Exhibits 120-121).
Moments prior to the shooting, surveillance video of the dark, lower lot of the
Ames Avenue convenience store seemed to depict a white sedan pulling into the
parking lot with headlights illuminated. (Exhibit 135; 813:8-20; 814:5-10). This was
based upon law enforcement's own observation. (813:8-20; 814:5-10; 841:25-842:12).
It was not formed by anyone associated with manufacturing or design from the
Chevrolet Corporation, nor was it the opinion of any individual associated with a local
Chevrolet dealership. (841:25-842:12). Eyewitness accounts of this vehicle varied
between a white vehicle and a small, dark vehicle that was reportedly not an Impala.
Gunshots were fired and immediately thereafter, patrons observed Mr. Rogers

staggering up from the south lot, shouting, "call the police, call the police." (501:1016; 508:10-18).
Upon paramedics' arrival to the convenience store parking lot, Mr. Rogers was
in stable condition. (459:19-460:2). M.T. Rogers was able to communicate on scene that
he had been shot. (456:3-23).
Law enforcement discovered three $2 bills on Mr. Rogers' person. (540:10544:24). Further, inside of his front jeans pocket, law enforcement collected 2.27
grams of cocaine. (891:1-892:11; Exhibit 71).

6

M:r. Rogers' vehicle was processed by the Omaha Police Department on the

evening of the shooting. (548:4-550:7; 850:15-852:15). The interior and exterior of Mr.
Rogers vehicle was swabbed for DNA. In addition, the vehicle was processed for
fingerprints. (583:20-588:5).

Law enforcement located narcotics within Mr. Rogers' vehicle. (617:18-20;
Exhibit 43). The narcotics were not visible from the outside of the vehicle. (617:18-

618:4). The amount of marijuana recovered in Mr. Rogers' vehicle was beyond a mere
user amount—it was an amount reflective of distribution. (618:22-619:8). The amount

of marijuana recovered from Mr. Rogers' vehicle amounted to approximately four
ounces. (624:19-22; 850-15-852:15).

Subsequent to the shooting, law enforcement discovered that a 2004 white
Chevrolet Impala had been sold "quickly" at a local auto sales shop. (899:2-900:18).
In fact, it was sold the day immediately following the shooting. (899:2-13). Law
enforcement did little to no follow up with respect to where that vehicle had come
from or who it had been sold to. (899:2-900:18; 910:3-13). Instead, all law enforcement
could account for was that it was purchased by a female. (899:2-21).
Photographic "stills" were collected from the video surveillance camera at a
local AutoZone approximately a week and a half after the shooting. (863:8-871:11).
These stills depicted an adult, black male entering the store and then making a
purchase of a steering wheel cover. (863:8-871:11; Exhibits 111-115). Detective .
Hinsley identified this adult, black male as Petitioner. (1104:18-1107:24).

7

Law enforcement interrogated the Petitioner nearly a year after the incident.

(831:19-833:8-12; 1090:2-11). During the course of the interrogation, Petitioner
reported to law enforcement that he did see Mr. Rogers on the day of the shooting at
Boost Mobile. (1115:25-1116:7; E162). Petitioner explained that he was familiar with
Mr. Rogers after having worked together in the past. (1116:3-4). Further, Petitioner

recalled being at Boost Mobile with Mr. Dennis. (1117:7-10; E162). In his
interrogation nearly a year after the shooting, Petitioner denied being anywhere near
the area of 42nd and Ames Avenue on the evening in question. (E162). Petitioner

reported to the detective that he believed he was with Ms. Lateah Carter-Thomas at
her residence, where he stayed overnight. (E162). From a review of the phone records,
the detective discovered that Petitioner had been in contact with a number of females

that day, the detective could not find any contact with Ms. Carter-Thomas on March
f

6, 2017. (1102:2-25).

Detective Nick Herfordt (hereinafter "Detective Herfordt") was responsible for
processing cellular phones in the criminal investigation. (942:11-23). During the
course of the investigation, law enforcement reviewed the one text message between
the phones attributed to Mr.. Rogers and Petitioner. It was a text message from Mr.
Rogers' phone to Petitioner's phone on March 6, 2017, sent at 6:37:38 p.m. that states,
"This Ronno." (957:14-958:20; 993:12-996:1; Exhibits 138, 152, 153).
]V[oreover, there were four completed calls made between the phone number
registered to Mr. Rogers and the phone number registered to Petitioner between 7:23
p.m. and 7:45 p.m. on March 6, 2017. (996:2-20). The call detail records of the phone

8

registered to Petitioner, as plotted by Detective Herfordt, provided CSLI of
approximately 42nd and Ames Avenue during the phone calls at 7:36 p.m. and 7.45
p.m. Thereafter, at 7:57 p.m., the cellular tower used by the number registered to
Petitioner was in use of the cellular tower near 72nd and Ames Avenue, with an
estimated distance of 1.22 miles from where the Ames Avenue Convenience Store is
located. (1036:2-24).

When a "transaction" occurs on a cellular phone, the phone will "communicate"
with the tower that the device has the best relationship with. (971:17-23; 998:18-25).
This is not necessarily the closest tower, as it could be affected by the volume of calls
at the time, geography, or extreme surges of electricity. (971:14-23; 998:18-25; 999:121; 1048:3-25). In this event, the phone will register or communicate with another
tower. (1049:3-12). Specifically, in Omaha, Nebraska, this would likely be within
approximately a mile. (1049:3-12).

Detective Herfordt reviewed the cellular records for the phone number
registered to JVIr. Dennis around the time of the homicide. (1045:17-1046:20; 1052:31053:25). Despite his efforts, the detective was unable to retrieve any CSLI from said
records as there was deplete of activity from 6:46 p.m. to 8:04 p.m. on March 6, 2017.
(1123:2-16). This complete lack of records could have simply been attributable to
nonuse of the phone. (1052:3-1053:25). However, it also could have been due to a user

manually turning off the cellular phone or placing the phone in "airplane mode"
during this timeframe surrounding the homicide. (1052:3-1054:12). In airplane mode,
a cellular phone will not transmit or receive a signal. (1054:4-12). Nonetheless, it was

9

.!

unusual for this particular number as there was regular activity from November 2,
2016, all the way through March 27, 2017. (1123:2-16).
Furthermore, Detective Herfordt analyzed the CSLI for the phone number

registered to Mr. Laron Rogers in the hours leading up to the shooting. From this
analysis, he was able to discern that the CSLI revealed the phone may have been in
the general area of the residence of Mr. William McNeal (hereinafter "Mr. McNeal"),
at 7:16 p.m. on the evening of the shooting. (1058:18-1060:17; Exhibit 169).
Mr. McNeal was Mr. Rogers' "plug." (1120:14-1121:17). In other words, Mr.

McNeal supplied Mr. Rogers with the marijuana that he distributed. (1120:141121:17). Detective Hinsley's investigation revealed that on the day of the shooting,
Mr. Rogers owed Mr. McNeal, his supplier, some money to a point where he seemed
desperate. (1120:14-1121:17).

Ms. Carter-Thomas did not recall seeing Petitioner on March 6th or 7th of 2017.
(1081:2-11). Albeit, there would be times in which Petitioner would spend the night
at her residence. (1081:2-11). Furthermore, when Ms. Carter-Thomas was

interviewed by Detective Hinsley approximately a year after the shooting, she
reported she could not recall if she was with Petitioner on the evening of the shooting.
(1084:-1086:8).

Dr. Michelle Elieff, a forensic pathologist, conducted the autopsy of Laron
Rogers and concluded to a reasonable degree of medical certainty that the cause of
death to Mr. Rogers was a gunshot wound of the lower torso. (663:11-18).

10

Following jury trial, the Petitioner was sentenced to life imprisonment for First
Degree Murder under the sole theory of liability of felony murder, to be followed by
25 to 30 years' imprisonment, plus 40 to 45 years' imprisonment for the weapons
offenses.

REASONS FOR GRANTING THE WRIT

I. IN A FIRST DEGREE FELONY MURDER CASE REQUIRING LIFE
IMPRISONMENT, DID THE NEBRASKA SUPREME COURT ERROR IN
APPLYING THE GOOD FAITH DOCTRINE TO A SEARCH WARRANT THAT WAS
EXECUTED APPROXIMATELY HALF A YEAR AFTER BOTH THE FEDERAL
STATUTE AND RELEVANT CASE LAW HAD BEEN OVERTURNED BY THIS

I

COURT AS UNLAWFUL, CONTRARY TO THE FOURTH AMENDMENT?
ii

The highest court in the State of Nebraska addressed the Petitioner's

arguments regarding the search warrant for cellular records, specifically CSLI data,
in two and a half pages for a first degree felony murder conviction, requiring life
imprisonment. While it is unclear due to the brevity of the analysis, the Nebraska
Supreme Court seemingly acknowledges that the search warrant (second search
chronologically) was unsupported by probable cause. (App-A, pg. 769). In doing so,
the Nebraska Supreme Court provided that this matter was akin to two cases of its
own precedent, State v. Jennings, 942 N.W.2d 753 ( Neb. 2020), and State v. Brown,
921 N.W.2d 804 (Neb. 2019). In simplest terms, the Nebraska case ofJennings relied
upon Illinois v. Krull, 480 U.S. 340 (1987), and Davis v. United States, 564 U.S. 229
(2011). At the time the searches were executed in Jennings, Carpenter had not been

11

decided by this Court and thus the F8CA was controlling, as was a Nebraska state
case, State u. Jenkins, 884 N.W.2d 429 (Neb. 2016).

Thus, in applying these local cases and in turn Krull as well as Davis, the
Nebraska Supreme Court lost sight of the critical temporal inquiry involved in the
good faith analysis—that being when the search occurred. At the time of the
subsequent search in this particular case, Carpenter had been published six months
prior. (App-F). It is of monumental significance in this analysis to note that the first
search of the CSLI is not before this Court in the Petition nor was it before the

Nebraska Supreme Court on direct appeal as the prosecution conceded to its
unlawfulness. (App-D). Consequently, at the time the subsequent, subject search was

executed neither a Krull nor Davis analysis was appropriate as the FSCA and
Jenkins had been overturned by Carpenter. Therefore, to dismissively and hastily
apply the good faith doctrine was reversible error by the Nebraska Supreme Court,
requiring this Court's intervention.

The Fourth Amendment of the United States Constitution provides "[t]he right
of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures...," and further guarantees "no Warrants shall
issue, but upon probable cause, supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or things to be seized."
The exclusionary rule "is a judicially prescribed remedial measure..." Segura
v. U.S., 468 U.S. 796, 804 (1984). This remedial measure accepts the premise that
the way to ensure such [constitutional and statutory] protections is to exclude

12

evidence seized as a result of such violations notwithstanding the high social cost of
letting persons obviously guilty go unpunished for their crimes." Nix v. Williams, 467
U.S. 431, 443 (1984).
According to the Court, "[wjhen police act under a warrant that is invalid for
lack of probable cause, the exclusionary rule does not apply if the police acted 'in
objectively reasonable reliance' on the subsequently invalidated search warrant."
Herring v. U.S., 555 U.S. 135 (2009). This remedial measure of the Fourth
Amendment "serves to deter deliberate, reckless, or grossly negligent conduct, or in
some circunistances recurring or systemic negligence." Id. at 145, 129 S.Ct.at 702.
The exclusionary rule is appropriate if (1) the judge or magistrate in issuing a
warrant was misled by information in an affidavit that the affiant knew was false or
would have known was false except for a reckless disregard for the truth, (2) the
issuing judge or magistrate wholly abandoned his or her detached and neutral role,
(3) the warrant is based on an affidavit so lacking in indicia of probable cause as to
render official belief in its existence unreasonable, or (4) the warrant is so facially
deficient that the officer executing the warrant cannot reasonably presume it is valid.
U.S. v. Leon, 468 U.S. 897, 923 (1984). It is prosecution that has the burden to show
that the good faith exception applies. Id. at 924.
The Ohio Supreme Court, in State v. Castagnola, refused to apply the good
faith exception to the exclusionary rule. 46 N.E.Sd 638, 659 (Ohio 2015). The Ohio
Supreme Court determined it would be inappropriate to apply because, "[t]he
affidavit was so lacking in indicia of probable cause and the warrant was so facially

13

deficient in failing to particularize the items to be searched for on Castagnola's
computer that the detective could not have relied on it in objective good faith." Id. at
660. Further, the court explained, "[q]uite simply, the search-warrant affidavit was
not based on evidentiary fact. It was based on layered inferences." Id. The court
stressed that "[a] search cannot depend on mere suspicion."
Finally, the Ohio Supreme Court declared that this was a "difficult case,"
admitting that the evidence obtained implicating the defendant (child pornography)
was "horrifically objectionable," but refused to apply the good faith exception
nevertheless. Id. The court expounded, "[t]here is always a temptation in criminal
cases to let the end justify the means, but as guardians of the Constitution, we must
resist the temptation." Id.
In United States v. Weaver, the Sixth Circuit Court of Appeals reversed the
•f

defendant's firearm convictions, finding that the boilerplate language of the affidavit
underlying the search warrant to be "bares bones," and thus holding the good faith

doctrine to be inapplicable. 99 F.3d 1372, 1374-1381 (6th Cir. 1996). The affidavit
contained boilerplate language with respect to the unlawful distribution of
marijuana, generic information about the subject residence, as well as unconfirmed
information from an unnamed confidential informant. Id. at 1375-1376. In addressing
the boilerplate language of the affidavit, the court recognized that affidavits are often

drafted "by nonlawyers in the midst and haste of a criminal investigation," yet
refused to dismiss that affidavits must reflect the particular case at hand. Id. at 1378.

14

According to the Sixth Circuit, "[t]he use of generalized boilerplate recitations

designed to meet all law enforcement needs for illustrating certain types of criminal
conduct engenders the risk that insufficient 'particularized facts' about the case or
the suspect will be presented for a magistrate to determine probable cause." Id.

(citing In re Young, 716 F.2d 493, 500 (8th Cir. 1983)(holding unacceptable an FBI
affidavit of 'broad, boilerplate statement describing in a general way' applications,
reports, and records commonly kept in bail bond operation)).
The search warrant, as presented, contained boilerplate language along with
minimal particularized information of an incriminating nature, along with conclusory
statements of the affiant's belief as to probable cause of criminal activity. Id. at 1379.
Law enforcement took no steps to corroborate the informant's claims with respect to
criminal activity, but rather only confirmed innocent facts that was, according to the
court, insignificant. Id. (citing U.S. v. Gibson, 928 F.2d 250, 252-253 (8th Cir.
1991)(msufficient showing of probable cause when officer only corroborated 'innocent
details' of utility records for account name, revenue agency for physical description,
and car titles, and '[t]here was neither surveillance nor observation of unusual
civilian or vehicular traffic at the address, nor were there very short visits

characteristic of drug trafficking.')). Thus, even assuming the information of the
confidential informant was reliable, the court's review of the affidavit "reveals of a

paucity of particularized facts indicating that a search of the... residence 'would
uncover evidence of wrongdoing.'" Id.

15

I,

The Sixth Circuit recognized the definition of a "bare bones" affidavit as one
"...that states suspicions, beliefs, or conclusions, without providing some underlying
factual circumstances regarding veracity, reliability, and basis of knowledge..." Id. at
1378. As the search warrant was merely supported by a "bare bones" affidavit, the
court determined the evidence seized at the residence should be suppressed as a "...a
reasonably prudent officer would have sought greater corroboration to show probable
cause and therefore do not apply the Leon good faith exception on the facts of this
case." Id. at 1381
The Third Circuit Court of Appeals in United States v. Goldstein determined it
was appropriate to extend the good faith doctrine to the government s search warrant
of the defendant's cell phone where the search warrant for CSLI data was executed

prior to Court's decision in Carpenter. __ F.3d _, No. 15-4094, 2019 WL 273103,
at *1 (3rd Cir. 2019). The defendant in Goldstein was arrested for his involvement in

a kidnapping scheme. Id. at *1. In an effort to find further evidence of his
involvement, the government acquired a court order pursuant to the FSCA,

compelling the defendant's phone carrier to produce 57 days' worth of CSLI data. Id.
This CSLI data placed the defendant in the vicinity of the scene of the kidnapping.
Id. at *2. Ultimately, following a trial, the defendant was convicted.
Upon applying Carpenter, the Third Circuit Court of Appeals determined the
CSLI data was acquired in contravention to the defendant's Fourth Amendment

rights. Id. Nevertheless, the court determined the exclusionary rule was not
applicable and rather the good faith doctrine should control as the government—at

16

the time of the search — was acting in objectively reasonable reliance on a statute as

well as then-binding appellate precedent. Id. at *2-3. In reaching said holding, the
Third Circuit relied on precedent of the Court—namely, Krull and Davis. Id.
In Krull, the Court determined that the good faith doctrine should apply where
"a search is executed pursuant to a statute that was valid at the time of the time of
the search but later declared unconstitutional." Id. at *3. In like manner, the Court
in Davis held that the good faith doctrine also should apply "when a search is
conducted based upon reasonable reliance on then-binding appellate precedent..." Id.

(emphasis added). At the time of the government search in Goldstein, the FSCA was
still valid and further Third Circuit precedent provided that an individual does not
have a reasonable expectation of privacy in CSLI data under the Fourth Amendment.
Id. The Court's opinion of Carpenter was published after the search was executed in
Goldstein. Id.

Lastly, the court noted that it was "in good company," as several other sister
circuit courts have also held that the good faith doctrine should be extended where
the government search for CSLI data occurred prior to the Courts decision in

Carpenter. Id. at *3; See U.S. v. Zodhiates, 901 F.3d 1378 (2nd Cir. 2018); U.S. v.
Christian, 737 Fed.Appx. 165 (4th Cir. 2018); U.S. v. Curtis, 901 F.3d 846 (7th Cir.
2018); U.S. v. Joyner, 899 F.3d 1199 (llth Cir. 2018).
The Supreme Court of Florida applied the same analysis as the Third Circuit

Court of Appeals in State v. Ferrari, _ So.3d _, No 4D14-464, 2018 WL 6132264
(Fla. 2018), wherein the court held the state could not meet the requirements off the

17

good faith exception to the Fourth Amendment exclusionary rule. In Ferrari, law
enforcement acquired the cell phone records of the defendant by means of a subpoena
in 2001.Id. at *6. At trial, an FBI agent testified about these cell records, specifically
the defendant's historical CSLI data. Id.

According to the Florida Supreme Court, it was reversible error for the trial
court to deny the defendant's motion to suppress as "[t]he 'good faith' exception avoids
the exclusion of the results of a warrantless search where the police conduct an
objectively reasonable search based upon binding decision as law, see Davis v. United

States, 564 U.S. 229, 131 S.Ct. 2419, 180 L.Ed.2d 285 (2011), or in reasonable reliance
on an applicable statute, even if that statute is later held to be unconstitutional, see

Illinois v. Krull, 480 U.S. 340, 107 S.Ct.1160,94 L.Ed.2d 364 (1987)." Id. at *7.
At the time the search was executed in 2001 in Ferrari, there was no binding
precedent in existence "that CSLI data was not within Fourth Amendment
protections and thus exempt from the warrant requirement." Id. The trial court
improperly relied on precedent from 2009, which predated the motion to suppress
hearing, yet post-dated the search by nearly a decade. Id.

The relevant inquiry with respect to application of the good faith doctrine is
the time of the search, and thus the Florida Supreme Court determined it was error
for the trial court to apply it. Id. Further, the detective did not cite any statute within
the request for issuance of the subpoena, and even though a relevant statute existed
at the time within the state, the government failed to comply with its terms. Id.

Consequently, the Florida Supreme Court held "the good faith exception to the

18

exclusionary rule does not apply because the State was not relying on binding
precedent or clearly applicable statutes in obtaining the data." Id. at *8.
The Nebraska Supreme Court, in its swift analysis on this matter, offered State
v. Jennings, 942 N.W.2d 753 (Neb. 2020) and State v. Brown, 921 N.W.2d 804 (Neb.
2019), as support for its holding. (App-A). Yet, neither state case should be controlling
due to the critical temporal differences that eliminate any reliance on Krull or Davis.
Most recently, the Nebraska Supreme Court in Jennings held the exclusionary
rule was inappropriate for application as law enforcement acted in reasonable
reliance on the FSCA. In Jennings, law enforcement obtained a court order for the
defendant's CSLI pursuant to the FSCA . Id. These records were obtained 18 months
prior to Carpenter. Id. Thus, the relevant case law at the time the search occurred
consisted of State v. Jenkins, 884 N.W.2d 429 (Neb. 2016), wherein the Nebraska
Supreme Court held that the FSCA did not violate the Fourth Amendment as there
is no reasonable expectation of privacy in CSLI. Id. As a result, the good faith
doctrine as set forth in both Krull and Davis was controlling in Jennings. Id.
Prior to Jennings, the highest state court published Brown, holding that the
exclusionary rule was not appropriate where law enforcement acquired the accused's
CSLI in reliance upon FSCA. Shortly after the search was conducted in Brown, the
Nebraska Supreme Court decided Jenkins. Moreover, while the matter in Brown was

on appeal, this Court published its opinion in Carpenter. Brown, 921 N.W.2d at 810.
Consequently, the Nebraska Supreme Court in Brown determined that Krull was
controlling because at the time the search was executed, officers' reliance on FSCA

19

i;

was reasonable and did not require application of the exclusionary rule. Id. at 810812.

At the trial level, the prosecution did not meet its burden in demonstrating the
good faith doctrine applies in light of the obvious Fourth Amendment violations. The

indiscriminate sweep of the language contained within the Affidavit and Search
Warrant for the cellular phone records of 402-312-6473 is intolerable, and to hold
otherwise, would be false to the terms, meaning, and history of the Fourth
Amendment. There is no fair probability articulated within the warrant and
supporting affidavit for the cellular phone that evidence of a crime will be found.

Instead, the prosecution relied upon boilerplate language based upon the detective's
training and experience to attempt to establish an evidentiary nexus between the
subject cellular phone and the criminal investigation.

In this matter, law enforcement searched and seized the victim's cell phone
prior to application for this search warrant. As a result, law enforcement was aware

that Mr. Rogers' phone had seemingly been in contact with the phone law
enforcement believed to belong to the Petitioner over an hour before the shooting.
Certainly, had the contents of this sole text message revealed criminal activity of any
nature, then the words of this text message certainly would have been included in the
underlying affidavit. Yet, there was no mention whatsoever as to what the contents

of this singular text message contained. (App-F). Not to mention, per the affidavit,
the phone number that Mr. Cox self-reported to law enforcement in 2016 differs from
the number provided to an employee at Boost Mobile and that was the subject of an
20

outgoing text message by Mr. Rogers. This distinction, in and of itself, should render
this Search Warrant for 402-312-6473 invalid as it fails the Fourth Amendment in

each particularity and probable cause.
Further, as in Castagnola, the good faith doctrine is not appropriate as the
affidavit was not based on evidentiary fact, but rather layered inferences. These
inferences, as in the Sixth Circuit case of Weaver, went unconfirmed and

uncorroborated by law enforcement, aside from innocent details. Here, law
enforcement learned from Mr. Rogers' parents, who had spoken to Mr. Rogers' boss,
that M-r. Rogers had contact with two black males the afternoon of the shooting. This
most certainly is layered information, as well as hearsay within hearsay. In an effort
to corroborate this information, law enforcement responded to his place of
employment and were able to review video surveillance. However, through this video
surveillance at his place of employment, law enforcement simply corroborated the
innocent fact that Petitioner was inside the Boost Mobile Store more than an hour

before the shooting, which occurred at a different location.
The only potentially incriminating information relayed to law enforcement
involved white Impala being present at Boost Mobile, which was only, in a basic
sense, similar to the suspect vehicle in that it was seemingly a white sedan. Even so,
this white Impala at Boost Mobile belonged to the Dennis family, not the Petitioner.
None of this information provides the necessary nexus to the CSLI required by the
Fourth Amendment.

21

The only information provided within the affidavit as to how cell phones are
related to a criminal investigation is within the page of boilerplate language, none of
which contains particularized facts about this particular investigation or this
particular cell phone. Certainly, an officer with reasonable knowledge of what is
prohibited by the law is more than aware of such differences in warrants. As a result,
official belief of law enforcement in this particular search warrant for the cell phone
is unreasonable. Admittedly, the Nebraska Supreme Court seemingly acknowledged
that the warrant was lacking in probable cause by applying the good faith doctrine,
however, as aforementioned, it is unclear due to the brevity of the analysis. (App-A).
Lastly, there is no basis provided in Carpenter to support the Nebraska
Supreme Court's application of the good faith doctrine for this particular search
warrant. As discussed above, a significant number of the federal circuit courts of
appeals have determined that the good faith doctrine should be applied where the
search occurred prior to the filing of Carpenter.
Unfortunately, none of the aforementioned arguments were addressed by the
Nebraska Supreme Court in its two and a half pages on this issue in this case before
the Court. In lieu of conducting an analysis pursuant to Leon, the Nebraska Supreme
Court abruptly held that the good faith doctrine was applicable in these facts based
upon its own precedent without discussion concerning probable cause. Namely, the
Nebraska Supreme Court opined, "[sjimliar to Brown and Jennings, law
enforcement's reliance on a court order issued under the Stored Communications Act,

at a time when the act had not yet been found by the U.S. Supreme Court or by this

22

court to implicate the Fourth Amendment, was not objectively unreasonable." (App.
A., pg. 770).
Factually, the Nebraska Supreme Court's rationale is inaccurate. This case is

distinguishable from those state cases in a significant way—law enforcement did not
conduct the search prior to Carpenter, but rather nearly six months after its
publication. This is critical as the temporal inquiry of the good faith doctrine
encompasses when the search at issued occurred. There were not multiple searches
for the Nebraska Supreme Court to review as there was in Jennings. In this case, the
first search of the cellular records—executed prior to Carpenter — was not before the

Nebraska Supreme Court for its review as the prosecution conceded at the trial level
as to its unlawfulness. (App-D, pgs. 13-14).

As the trial court noted in its order, the State failed to raise the good faith
t

doctrine as to the initial search when it conceded as to the illegality. (App-D, p. 15).

The prosecution applied for the cellular records pursuant to a search warrant nearly
six months after Carpenter and approximately 20 months following the initial

application to search the cellular records. (App-C; App-F). Therefore, unlike
Jennings, neither Krull nor Davis is controlling in this particular case as at the time
of the application and execution of the subsequent search warrant, Carpenter had
been in effect for nearly half a year. The result of this opinion clarified that Jenkins

was no longer binding precedent in the State of Nebraska and that law enforcement's
reliance on the FSCA was contrary to the protections afforded by the Fourth
Amendment.

23

Consequently, the Nebraska Supreme Court entirely omitted an analysis
under Leon, instead applying EruZZ and Davis in such a way so as to render the Fourth
Amendment ceremonial, at most. As a result, guidance from this Court is necessary
to ensure the Fourth Amendment is not circumvented by allowing a search and
seizure to be superficially labeled as conducted pursuant to the "good faith doctrine"
without any meaningful examination. Should this Court not intervene, the Nebraska

Supreme Court may continue to hastily reduce the Fourth Amendment to "a form of
words."

II. WAS IT A DENIAL OF THE PETITIONER'S FOURTH AMENDMENT
RIGHTS FOR THE NEBRASKA SUPREME COURT TO DECLINE TO ADDRESS
THE TRIAL COURT'S SUA SPONTE APPLICATION OF THE INDEPENDENT
SOURCE DOCTRINE TO IMMUTABLE EVIDENCE?

The burden to establish by a preponderance of the evidence that information
inevitably independently was acquired by lawful means belongs to the prosecution.
Nix v. Williams, 467 U.S. at 444; Nardone v. U.S., 308 U.S. 338, 342 (1939). Thus, it
was reversible error for the trial court in the case pending before to the Court to set
forth an exception to the exclusionary rule, on its own accord, that the State had the
burden to raise and prove by a preponderance of the evidence. Id.
As provided in the argument above, the facts set forth in the record are

insufficient, even when viewed in totality, to support application of the independent
source doctrine. The State failed to raise this exception to the exclusionary rule.

Instead, the prosecution argued that the warrant (App-F) was supported by probable
24

cause and, alternatively, if it was not supported by probable cause, that Detective
Hinsley executed the search warrant in good faith reliance on Carpenter.
Nonetheless, the trial court, in its order denying the motion to suppress,
determined on its own that the independent source doctrine was applicable. (App-G;
App-H). As in Murray, there was no factual finding in the trial court's order as to
Detective Hinsleys motivation in procuring the search warrant (App-F) for the
cellular records. There was no mention in the order as to how Detective Hinsley, in
fact, was affected or prompted by what was discovered during the course of the initial
unlawful search of the cellar records—an illegality that the State conceded in the
court below. Thus, as the trial court improperly applied an exception to the
exclusionary rule on its own accord, and the Nebraska Supreme Court omitted any
analysis on this issue in its opinion, the Petitioner respectfully requests this Court
reverse this case and remand the matter for new trial.

The vitality of the independent source doctrine is called into question by the
prevailing use of immutable evidence in criminal prosecutions. In particular, relevant
immutable evidence includes DNA, cellular-site location information, and cellular

phone data. The nature of said evidence provides that law enforcement may
repeatedly apply for a search warrant for the same substantive evidence without
having to physically maintain possession of the initial evidence acquired pursuant to
an unlawful search and seizure. For example, should law enforcement obtain CSLI
data by a court order unlawfully, there is no manner to forbid application for a search
warrant of the identical CSLI data to a cellular provider. Moreover, nor is there any

25

method to prevent a third search for this evidence should the trial court find both the
first and second search unlawful. Due to the unique nature of immutable evidence,
without any specified limitations, there are infinite opportunities for the prosecution
to use said evidence without consequence. The result of such a practice will be to
render the Fourth Amendment, by its words, meaning, and purpose, a mere formality.
While the independent source doctrine should not provide the effect of
"immunity from prosecution," its use should be explicitly addressed as to immutable
evidence. As set forth in Wayne LaFave's "Search and Seizure: A Treatise on the
Fourth Amendment,"

The 'independent source' exception was initiated only to protect the
government where its source is developed through honest police efforts
and not where its evidence is developed through a mixture of good and
bad police work... It is a matter of deterrence. If the police know that
their initial illegality can be covered up later by legal police work, what
is there to stop them from committing the initial illegality^
§11.4(a) Extent of the taint: "but for"; "attenuated connection"; "independent
source"; and "inevitable discovery" (September 2020 update)(emphasis added).

A number of courts have been presented with arguments regarding the
application of the independent source doctrine to immutable evidence. State v.
Betancourth, 413 P.3d 566 (Wash. 2018)(applying the traditional independent source
doctrine where the subsequent search warrant for cellular records was sought to
remedy a jurisdictional matter); Commonwealth v. Wilson, 158 N.W.Sd 343 (Mass.

26

2020) (applying the independent source doctrine to CSLI data sought approximately
four years after the initial search); Commonwealth v. Henderson, 47 A.3d 797 (Pa.
2 012) (affirmed lower court in refusing to apply the independent source doctrine to
second search warrant for DNA sample where law enforcement did not exploit fruit
of the unlawful search); People v. Dominguez-Castor, 469 P.3d 514 (Colo. App.
2020) (affirming trial court's application of the independent source doctrine to
subsequent search of cellular phone records even where law enforcement gained
knowledge of phone contents prior to second search warrant application); U.S. v.

Baires-Reyes, No. 16-10545, 750 Fed.Appx. 548 (2018), at *550-551 (9th Cir.
September 25, 2018)(on plain error review rejected application of independent source
doctrine to DNA swab of the accused, amongst other evidence acquired, following
unlawful entry into the home as said doctrine only allows admission of evidence
"actually acquired through a separate and lawful means"). Yet, there is a lack of
guidance provided on how the purpose and application of the independent source
doctrine is challenged by immutable evidence.

The New Jersey Supreme Court made an effort to address this very difficulty
in State v. Camey, 217 A.3d 106 (N. J. 2019). In Camey, the New Jersey Supreme
Court established a new variety of the independent source doctrine. Id. at 122-123.
As support for rendering this new test, the court offered,

...DNA is not an item like guns, drugs, or documents. DNA is different
in that immutable evidence lives on. Always. And the breadth of it
extends beyond the swab. A new DNA sample might provide the same

27

information as the original sample, but each sample is eyidence_in its
own right—and the exclusionary rule bars the use of the same evidence
that was illegally obtained or 'poisoned fruit' evidence that would not
have been discovered but for the initial, illegally obtained evidence.
Id. at 121.

To fully understand why immutable evidence presents unparalleled
complications to the independent source doctrine, a review of the precedent from

which it originated provides insight. The Court in Segura v. United States held "...the
evidence discovered during the subsequent search of the apartment the following day
pursuant to the valid search warrant issued wholly on information known to the
officers before the entry into the apartment need not have been suppressed as "fruit"

of the illegal entry because the warrant and the information on which it was based
were unrelated to the entry and therefore constituted an independent source for the
evidence..." 468 U.S. 796, 799 (1984)(emphasis added). It was undisputed in Segura
the law enforcement conducted an illegal, warrantless entry into Segura's apartment
whereupon items indicative of drug trafficking were observed in plain view. Id. at
804.

At the time of the illegal entry in Segura, law enforcement was already in the
process of acquiring a search warrant for the residence. Id. at 797-798. The reason

for the delay was solely due to the "lateness of the hour." Id. at 800. Thus, due to
administrative delay," the search warrant was not presented to the magistrate until
the following day. Id. at 801.

28

The Court, in its opinion, reasoned that the drugs and other items were not

"fruit" of the illegality because, the facts did not support that "but for" the illegality,
law enforcement would not have searched and seized the evidence at issue. Id. at 811,

815. Specifically, the Court provided, "...the initial entry—legal or not—does not
affect reasonableness of the seizure. Under either method—entry and securing from
within or a perimeter stakeout—agents control the apartment pending arrival of the
warrant; both an internal securing and a perimeter stakeout interfere to the same
extent with the possessory interests of the owners." Id. at 811.

Nonetheless, even where the facts did not support the first prong of "but for"
causation of the exclusionary rule, the Court proceeded in its analysis. Id. at 813-814.
The drugs and other items were not "fruit" as none of the information within the
search warrant "was derived from or related in any way to the initial entry into

petitioners' apartment; the information came from sources wholly unconnected with
the entry and was known to the agents well before the entry." Id. at 814 (emphasis
added). As a result, suppression was not justified. Id. at 815.
At the time the Court decided Segura, the complexities of searches involving

the application of the independent source doctrine to immutable evidence were not
foreseeable. Technology has advanced in such a way that a search of a cellular phone
"...would typically expose the government to far more than the most exhaustive

search of a house..." RUey v. California, 573 U.S. 373, 396-397 (2014). While in Segura
it may not have been consequential to the Court if the initial entry was "legal or not,"

it undoubtedly should alter the analysis of this Fourth Amendment doctrine with
29

immutable evidence. This case before the Court presents an example of the problem.
In particular, should law enforcement be permitted to remedy an unlawful seizure of
CSLI data, there will be no incentive to abide by the Fourth Amendment at the outset.
Instead, law enforcement will repeatedly engage in the same conduct as was done
here—once the evidence has been copied and thoroughly examined in the haste of an
investigation, it will take then make efforts to abide by the Amendment, as the
evidence will remain in the same condition as months or even years before.
The Court in Murray v. United States vacated the judgment and remanded the
matter to the trial court where the record did not support a factual finding as to
whether law enforcement's decision to seek the search warrant was prompted or
affected by the drugs observed in the warehouse during the initial unlawful entry.
487 U.S. 533, 542-544 (1988). In Murray, law enforcement conducted a warrantless
entry into a warehouse where the officers observed numerous burlap-wrapped bales
of marijuana. Id. at 535, 108 S.Ct. at 2532. Thereafter, law enforcement applied for a
search warrant without including any information as to its unlawful entry or what
had been observed during the unlawful entry and without making mention of said
observations to the Magistrate. Id. at 535-536, 108 S.Ct. at 2532. Upon issuance of
the search warrant, law enforcement reentered the warehouse and seized 270 bales

of marijuana as well as records listing customers for whom the bales of marijuana
were destined. Id.

The Court, in its opinion, made clear that there is not a sound rationale for a
distinction in application of the independent source doctrine between tangible and

30

intangible evidence. Id. at 541-542, 108 S.Ct.at 2535. In support of this premises, the
Court explained:

The independent source doctrine does not rest upon such metaphysical
analysis, but upon the policy that, while the government should not
profit from its illegal activity, neither should it be placed in a worse
position than it would otherwise have occupied. So long as a later, lawful
seizure is genuinely independent of an earlier, tainted (which may well
be difficult to establish where the seized goods are kept in the polices
possession) there is no reason why the independent source doctrine
should not apply.

Id. at 542, 108 S.Ct. at 2535 (emphasis added).
Moreover, the Court clarified that the independent source doctrine involves an
inquiry into whether the search pursuant to the warrant was in fact a genuinely
independent source" of the evidence at issue. Id. at 542. According to the Court, this
would not be the case "if the agents' decision to seek the warrant was prompted by
what they had seen during the initial entry or in information obtained during the
entry was presented to the Magistrate and affected his decision to issue the warrant."
Id.

In the case before this Court, the record is demonstrative of the difficulties
presented in applying the traditional independent source doctrine to immutable
evidence. By its nature, immutable evidence does not require that law enforcement
ever maintain the unlawfully seized evidence in their possession, as was

31

contemplated in Murray. Thus, the prosecution may circumvent the Fourth
Amendment by asserting the independent source doctrine so long as officers request
a new copy of the evidence sought, whether it be CSLI data, a DNA sample, or call
detail records.

While two such searches satisfied the trial court in this case, the possibilities
are endless for application. Without guidance from this Court as to the parameters of
the doctrine in at the current technological age, a "cat and mouse" game may ensue
pending trial with repeated attempts at searches until the trial court is satisfied the
terms of the Fourth Amendment, on its face, have been abide by. This could not

possibly be what the Framers intended in creating the Fourth Amendment. As stated
by this Court long ago, "[t]o hold otherwise would be false to the terms of the
Amendment, false to its meaning, and false to its history." Stanford v. State of Texas,
379 U.S. 476, 486 (1965).

The Nebraska Supreme Court failed to address the trial court's application of
the independent source doctrine on its own accord as its analysis on the search and
seizure of the CSLI was simply two and a half pages in length as to all assignments

of error raised by the Petitioner on direct appeal. (App-A; App-I). Aside from the
difficulties presented by immutable evidence to the traditional independent source
doctrine, the Nebraska Supreme Court did not at all address how the trial court's
order is devoid of factual determinations as to law enforcement's motives as required
by Segura and Murray. There was no discussion whether the officer's decision to seek
the warrant was prompted or affected by what he had learned from the initial search

32

or if information obtained during the initial search was presented to the issuing
judge. Consequently, this Court should reverse Petitioner's conviction and, at the
very least, remand the matter for further factual findings as was done in Murray.
Although the record is devoid of the requisite factual determinations, it is
imperative for this Court to consider that record available suggests the independent
source doctrine must not even apply in a traditional application. Namely, during the
suppression hearing held on October 9, 2018, Detective Hinsley testified that as a
result of the initial search wherein the evidence was copied, booked into property,
and plotted, law enforcement discovered through the cellular records at issue that
the phone was in the area of a homicide during the shooting, thereby gaining an
advantage from the unlawful search. (App-H). It is difficult to conceptualize,
therefore, how it could be possible that Detective Hinsley's decision to seek the
subsequent warrant was not at all prompted by the discovery of this cellular site
location information, especially in light of the fact that the Petitioner had not been
arrested for the subject crimes at the time of the initial, unlawful search. (App-H,
45:1-4).

Consequently, the record available to this Court reveals that law
enforcement's decision to seek the search warrant was prompted and connected to
the initial illegality. The limited facts presented on this topic suggest that unlike
Segura, law enforcement was not in the process of acquiring a search warrant for the
cellular records when the initial illegality occurred. Instead, the only available facts

33

provide that the subsequent search occurred approximately 20 months after the
initial search was executed.

After all, in drafting and applying for the cellular records again at the direction
of the prosecution, Detective Hinsley did not simply leave the affidavit and
application in a similar fashion with the exception of a few minor changes (such as
"order" to "warrant" and/or removing language regarding the FSCA). Rather than
leaving the affidavit largely the same, he added an entire page to the affidavit in an
effort to ensure its approval. (App-C; App-F; App-H). This entire page containing a
thorough explanation as to the importance of cellular records in criminal
investigations is consequential in light of the fact that the affidavit (App-F) is simply
six pages—the final page being signatures from the approving judge.

In addition, the timing is imperative for this Court's consideration. The State
did not seek a search warrant for the cellular records immediately upon or near in
time to the release of Carpenter. In fact, the initial suppression hearing in this case
took place in the interim. Instead, nearly a month after the suppression hearing, a
full five months after Carpenter was published by the Court, and in the same week
as the prosecution's concession to the motion to suppress the cellular records, did the
State finally apply for a search warrant. Thus, from the available record, there is not
sufficient support to make a finding that law enforcement's decision to seek the
second search warrant was not prompted or affected by what was discovered during
the initial unlawful search.

34

CONCLUSION
For each and all of the aforementioned reasons, the Petitioner respectfully
requests the Court grant this Writ of Certiorari as it is imperative for purposes of
preservation of the Fourth Amendment.

RESPECTFULLY SUBMITTED:

"1.

A

Thomas C. Riley^#13'523 /
Douglas County Public Defender
Attorney for Petitioner

35

